<html>
<title> - H.R. 1521, H.R. 1658 and H.R. 2055</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 1521, H.R. 1658 and H.R. 2055

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 24, 2003

                               __________

                           Serial No. 108-33

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-905              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 24, 2003....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Jones, Walter B., a Representative in Congress from the State 
      of North Carolina..........................................     4
        Prepared statement on H.R. 2055..........................     7
    Murtha, Hon. John P., a Representative in Congress from the 
      State of Pennsylvania......................................     3
        Prepared statement on H.R. 1521..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 1521, H.R. 1658 and H.R. 2055.     2

Statement of Witnesses:
    Anderson, Bob, Acting Assistant Director for Minerals, Realty 
      and Resource Protection, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, D.C................    11
        Prepared statement on H.R. 1658..........................    12
    Arnaiz, Matt, Property Owner, Lodi, California...............     9
        Prepared statement on H.R. 1658..........................    10
    Smith, P. Daniel, Special Assistant to the Director, National 
      Park Service, Washington, D.C..............................    13
        Prepared statement on H.R. 1521..........................    14
        Prepared statement on H.R. 2055..........................    16

Additional materials supplied:
    Mason, Carolyn, President and Chairman, Foundation for 
      Shackleford Horses, Inc., Letter submitted for the record 
      on H.R. 2055...............................................    24
    Rubenstein, Daniel I., Professor and Chair, Princeton 
      University, Letter submitted for the record on H.R. 2055...     6


LEGISLATIVE HEARING ON H.R. 1521, TO PROVIDE FOR ADDITIONAL LANDS TO BE 
 INCLUDED WITHIN THE BOUNDARY OF THE JOHNSTOWN FLOOD NATIONAL MEMORIAL 
  IN THE STATE OF PENNSYLVANIA, AND FOR OTHER PURPOSES; H.R. 1658, TO 
 AMEND THE RAILROAD RIGHT-OF-WAY CONVEYANCE VALIDATION ACT TO VALIDATE 
ADDITIONAL CONVEYANCES OF CERTAIN LANDS IN THE STATE OF CALIFORNIA THAT 
     FORM PART OF THE RIGHT-OF-WAY GRANTED BY THE UNITED STATES TO 
 FACILITATE THE CONSTRUCTION OF THE TRANSCONTINENTAL RAILWAY, AND FOR 
OTHER PURPOSES; AND H.R. 2055, TO AMEND PUBLIC LAW 89-366 TO ALLOW FOR 
 AN ADJUSTMENT IN THE NUMBER OF FREE ROAMING HORSES PERMITTED IN CAPE 
                       LOOKOUT NATIONAL SEASHORE.

                              ----------                              


                         Tuesday, June 24, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:10 p.m. in 
room 1334, Longworth House Office Building, Hon. George P. 
Radanovich, [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands will come to order. 
This is a hearing on H.R. 1521, H.R. 1658, and H.R. 2055. This 
afternoon the Subcommittee will hear testimony on these three 
bills.
    Our first bill, H.R. 1658, introduced by our Chairman, 
Richard Pombo, amends the Railroad Right-of-Way Conveyance 
Validation Act to validate additional conveyances of certain 
lands in the state of California that form part of the right-
of-way granted by the United States to facilitate construction 
of the transcontinental railway.
    Our second bill, H.R. 2055, introduced by our Subcommittee 
colleague, Mr. Jones, amends Public Law 89-366 to allow for an 
adjustment to the number of free-roaming horses permitted in 
the Cape Lookout National Seashore.
    Our last bill, H.R. 1521, introduced by Congressman Murtha 
of Pennsylvania, provides for additional lands to be included 
within the boundary of the Johnstown Flood National Memorial in 
the state of Pennsylvania. Mr. Murtha will be here very soon, 
although we are going to go ahead with our opening statements 
and one by Mr. Jones, as well, until he gets here. Then we will 
go right to our witness.
    I now recognize the Ranking Member, Mrs. Christensen, for 
any opening statement that she may have.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George Radanovich, Chairman, Subcommittee on 
National Parks, Recreation, and Public Lands, on H.R. 1521, H.R. 1658, 
                             and H.R. 2055

    Good afternoon. The hearing will come to order.
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on three bills--H.R. 1521, H.R. 
1658 and H.R. 2055.
    Our first bill, H.R. 1658, introduced by our Chairman Richard 
Pombo, amends the Railroad Right-of-Way Conveyance Validation Act to 
validate additional conveyances of certain lands in the State of 
California that form part of the Right-of-Way granted by the United 
States to facilitate construction of the transcontinental railway.
    Our second bill, H.R. 2055, introduced by our Subcommittee 
colleague Mr. Jones, amends Public Law 89-366 to allow for an 
adjustment in the number of free roaming horses permitted in Cape 
Lookout National seashore.
    Our last bill, H.R. 1521, introduced by Congressman Murtha of 
Pennsylvania, provides for additional lands to be included within the 
boundary of the Johnstown Flood National Memorial in the State of 
Pennsylvania.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I, too, would 
like to welcome our colleagues and Mr. Murtha when he arrives 
at this hearing. We are looking forward to learning more about 
the three measures before us today.
    Our first bill, H.R. 1521 sponsored by our colleague, Jack 
Murtha, would expand the boundaries of the Johnstown Flood 
National Memorial. The memorial commemorates one of the worst 
natural disasters in American history and the more than 2,200 
lives that were lost in the flood waters. There are several 
private property owners interested in selling their land for 
inclusion within the memorial and this legislation is needed to 
facilitate these acquisitions. We look forward to hearing from 
our witnesses regarding the importance of these potential 
additions to the memorial.
    Our second measure, H.R. 1658, is sponsored by Chairman 
Pombo. The legislation is a technical measure that would remove 
a cloud on the title to two parcels of private property owned 
by one of the Chairman's constituents. The Congress has 
approved many similar conveyance validations and we are unaware 
of any controversy regarding this measure.
    Our last bill, H.R. 2055 by Mr. Jones of North Carolina, 
amends legislation that was passed in 1998 to change the number 
of free-roaming horses permitted at Cape Lookout National 
Seashore in North Carolina. Specifically, H.R. 2055 eliminates 
the 100-horse minimum and inserts a 110-horse minimum with a 
target goal of 120 to 130 horses, as well as making several 
other changes to the 1998 act. I understand the study and 
maintenance of the herd has involved the time and effort of 
many people and I would be interested in learning more about 
the viability of the herd and how potential problems with other 
park resources have been avoided or addressed.
    I want to welcome our colleague Mr. Murtha and thank you 
for the time.
    Mr. Radanovich. Thank you very much, Mrs. Christensen.
    The Committee welcomes Congressman John Murtha from 
Pennsylvania. Mr. Murtha, welcome to the Subcommittee and you 
are here to speak on your bill, H.R. 1521, which provides for 
additional lands to be included within the boundaries of the 
Johnstown Flood National Memorial in the state of Pennsylvania. 
Welcome, sir.

 STATEMENT THE HON. JOHN MURTHA, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Murtha. Thank you very much, Mr. Chairman.
    In 1964 my predecessor passed legislation that made this a 
park and we have expanded it since then. As many of you know, 
in 1889 we lost over 2,000 people in a flood in Johnstown. We 
have had several floods since. We had one in 1977 where we lost 
a couple of hundred people and sustained $300 million worth of 
damage. But the significance of this flood was that it was the 
greatest water disaster in Pennsylvania and in the country in 
the last couple of centuries.
    What we want to do is expand--we have about 150,000 
visitors a year and we want to increase this number. We would 
appreciate it if you could authorize the expansion. We fund the 
park a little bit every year. We have improved it and made some 
real progress. It is in an area where we memorialize an event 
which was tragic but had a real significance to the country at 
the time. At that time in 1889 they got no help at all. This is 
the breast of the dam where the water broke and flowed into 
Johnstown itself. So we appreciate the opportunity to testify 
for the Committee.
    We do ask for a change to the bill. We needed a technical 
correction to reflect that one owner is not willing to sell. 
But we still want to expand and take in the clubhouse and some 
of the historic buildings that are right next to the park. We 
want to buy some land to expand this small park.
    [The prepared statement of Mr. Murtha follows:]

Statement of The Honorable John P. Murtha, a Representative in Congress 
              from the State of Pennsylvania, on H.R. 1521

    Mr. Chairman, I would like to thank the Committee for bringing this 
bill up for consideration so quickly in this Congress.
    This bill will authorize the expansion of the Johnstown Flood 
National Memorial, a National Park Service site in South Fork, 
Pennsylvania.
    Specifically, the bill will enable the National Park Service (NPS) 
to acquire adjacent properties and historically significant structures 
that are an integral part of the story of the Johnstown Flood.
    The Great Johnstown Flood, which occurred on May 31, 1889, was the 
largest news story in the era next to the assassination of Abraham 
Lincoln. It swept away an entire city, causing the loss of over 2,209 
people. Though members of the South Fork Fishing and Hunting Club, 
which owned the earthen dam and was situated above it, worked 
feverishly during the storm to prevent the dam from bursting, their 
efforts were futile.
    The Johnstown Flood Memorial was dedicated in 1964. Today the park 
consists of 165 acres and receives over 126,000 visitors annually. It 
preserves the remains of the old South Fork Dam which was breached in 
the flood, as well as portions of the former Conemaugh Lake bed.
    This bill would authorize the purchase or acquisition by NPS, from 
willing sellers, an additional approximately 14 + acres. This property 
holds certain related historic structures such as the ``Moorhead 
Cottage'' and the ``Clubhouse.'' Both of these are significant to the 
story of the Johnstown Flood as they represent the life and role of 
club members both before and after the flood. The property offers a 
unique opportunity to use tangible resources to interpret the events 
that led to the Johnstown Flood, and the club members' response to the 
Flood.
    Should the Subcommittee move this bill forward, I would request 
that the bill and related map be amended to exclude the .25 acre parcel 
owned by Richard Martyak, as he is no longer a willing seller.
    I appreciate the Committee's consideration of this bill. Thank you 
for your time.
                                 ______
                                 
    Mr. Radanovich. Very good. I assume that those changes are 
in the bill and we welcome that. Mr. Murtha, thank you for your 
testimony and I ask unanimous consent that Mr. Murtha be 
allowed to come on the dais for the rest of the hearing if he 
so chooses. There being no objection, so ordered. Again thank 
you very much for your testimony.
    Mr. Murtha. Thank you very much.
    Mr. Radanovich. The Chair recognizes Mr. Jones from North 
Carolina to speak to his bill, which is H.R. 2055 to amend 
public law to allow for an adjustment in the number of free-
roaming horses permitted on the Cape Lookout National Seashore. 
Mr. Jones, welcome.

  STATEMENT OF THE HON. WALTER B. JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you and to the lady, thank 
you for this opportunity to briefly discuss H.R. 2055 and the 
reason for it.
    Very quickly, as Mrs. Christensen made reference, we in 
1997 introduced a bill, the Shackleford Banks Wild Horses 
Protection Act. These little horses down in my district are 
genetically traced back to the Spanish mustangs that swam 
ashore back in the 1600's. The bill itself was quite 
interesting. It created a relationship with the citizens of 
Carteret County by establishing in the bill the Shackleford 
Banks Foundation so the citizens would have a partnership with 
the Park Service. Certainly the Park Service would be the lead 
but they would also work with the citizens down in that area 
who believe that these horses, as I believe, are part of North 
Carolina's heritage and a very important part at that.
    As things have moved forward I do want to say that two well 
known genetic scientists, Dr. Dan Rubenstein from Princeton 
University and Dr. Gus Cothran from the University of Kentucky, 
have been working with the Park Service and the citizens down 
in eastern North Carolina for years and years. Both these 
gentlemen, working with the Park Service down in Carteret 
County, along with the citizens, they believe that there needs 
to be, to ensure the diversity and the future of this herd, 
have an optimum size and that should be somewhere around 120.
    Dr. Rubenstein came to Washington and I had lunch with him 
about three or 4 weeks ago. He has submitted a letter of 
support for this bill. I have his letter, and I ask unanimous 
consent that I submit his letter, along with my written 
testimony about this bill.
    Mr. Radanovich. There being no objection, so ordered.

    [Dr. Rubenstein's letter submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7905.004
    
    [GRAPHIC] [TIFF OMITTED] T7905.005
    

    Mr. Murtha. That there should be--the terminology is to 
allow the herd to bloom to around 130 and a little bit more. So 
normally this is what we are trying to ask in this bill and I 
will say that we did work with the Interior down in Atlanta, 
Georgia with drafting this legislation, along with the local 
Cape Lookout supervisor, Bob Vogel, and we have come to this 
formula and this resolution that we think will ensure the 
future of this herd for generations to come.
    With that, Mr. Chairman, I do not have any other comments.
    [The prepared statement of Mr. Jones follows:]

    Statement of The Honorable Walter B. Jones, a Representative in 
        Congress from the State of North Carolina, on H.R. 2055

    Mr. Chairman, I would like to thank you for scheduling this hearing 
on H.R. 2055--a bill to adjust the number of free roaming horsed 
permitted on Shackleford Banks in the Cape Lookout National Seashore. 
Shackleford Banks is a barrier island off the coast of North Carolina 
that has been home to a herd of wild horses for over three centuries. 
In fact, many experts believe the herd descended from Spanish stallions 
that were shipwrecked on the island during colonial times.
    Over the years, the Shackleford horses have become an integral part 
of the natural and cultural fabric of Eastern North Carolina. They are 
treasured by the local community and adored by the many visitors who 
come from across the country to see them.
    To protect these beautiful creatures, in 1997 I introduced the 
Shackleford Banks Wild Horses Protection Act which the President later 
signed into law. The Act directed the Department of the Interior to 
enter an agreement with a non-profit group--the Foundation for 
Shackleford Horses--to manage the herd. It also required the Department 
to allow a herd of 100 free-roaming horses in the Seashore, and it set 
out terms under which horses could be removed, including a prohibition 
on removal ``unless the number of horses ... exceeds 110.''
    As the National Park Service and the Foundation began to implement 
the Act, disagreement erupted over the law's requirements on the size 
of the herd. The Park Service interpreted the Act to mean that the 
herd's population should be kept between 100 and 110. However, as the 
author of the legislation, it is my strong belief that this 
interpretation was inconsistent with Congressional intent--which was to 
allow the herd to hover above 110.
    The Park Service's interpretation also conflicted with the 
established scientific consensus on the size of the herd. Studies by 
world-renowned genetic scientists Dr. Daniel Rubenstein of Princeton 
University, and Dr. Gus Cothran of the University of Kentucky, confirm 
that in order to maintain the herd's long-term viability, its optimum 
size is around 120 animals. The experts also agree that the population 
should not dip below 110 and that it should be allowed to expand 
periodically to numbers at or above 130 in order to sustain the proper 
genetic diversity in the herd. It's important to note that these 
numbers are well within the island's carrying capacity.
    After several years of disagreement on the herd size issue, the 
Park Service met last fall with the Foundation for Shackleford Horses, 
Dr. Rubenstein, Dr. Cothran and other stakeholders in an effort to find 
middle ground. After two days of meetings, the parties emerged with an 
agreement that largely mirrors the scientific understanding of how the 
horses should be managed.
    H.R. 2055 seeks to codify this scientific consensus into law. It 
would allow a herd of ``not less than 110 free roaming horses, with a 
target population of between 120 and 130 free roaming horses.'' It 
would also clear up confusion on when horses can be removed from the 
island by mandating that removal can only occur if ``carried out as 
part of a plan to maintain the viability of the herd.''
    Mr. Chairman, this legislation has the support of the 
Superintendent of Cape Lookout National Seashore, the scientific 
experts, and the local community. It is a legislative fix based on 
sound science that addresses a purely local issue. I thank the 
Subcommittee for its consideration of this important bill.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Jones.
    Ms. Bordallo, any opening statement or comments?
    Ms. Bordallo. Thank you, Mr. Chairman. I just have one 
question.
    What is the size of the herd now, currently?
    Mr. Jones. Well, there was some question. We intended in 
the original legislation to have the threshold or the limit to 
be somewhere around 120, so we put the figure in around 110 and 
there has been some confusion among not only the Park Service 
but also the citizens as to what is the optimum number that is 
needed to ensure the diversity and the future of the herd.
    So what we are trying to do is take it from 120 and to have 
130 as the max. But if it should go over by three or four 
little colts born during the year, that they would have a 
little bit of flexibility so they could determine--to go back 
down to the 130 they could determine the diversity by the sex 
of those colts and foals that were born.
    Ms. Bordallo. I was just curious. So it is right around--
the herd number right now is----
    Mr. Jones. 110.
    Ms. Bordallo. Within these numbers.
    Mr. Jones. Yes, ma'am. And actually Dr. Rubenstein, when we 
introduced this bill back in 1997, testified on behalf of this 
bill and we felt that that number--we were hoping that the 
number would be at that time around 120. I guess in drafting it 
we did not make it clear enough.
    Some with the Park Service when we had this discussion last 
year said that well, 110 is the limit or 110 is the floor, and 
we never got it clear. That is the reason we have put this back 
in: to get clarity on what the scientists say we need to ensure 
the herd.
    Ms. Bordallo. Thank you very much.
    Mr. Jones. Thank you, ma'am.
    Mr. Radanovich. With that we will call our second panel up 
to address these bills. Mr. Dan Smith, who is special assistant 
to the director of the National Park Service to speak on H.R. 
1521 and H.R. 2055. Mr. Bob Anderson is the acting assistant 
director for Minerals, Realty and Resource Protection with the 
BLM on H.R. 1658. Mr. Matt Arnaiz, property owner from Lodi, 
California to speak on H.R. 1658.
    Gentlemen, welcome to the Subcommittee. If you would 
observe the colored lights in front of you, red means stop, 
yellow means slow down and green means keep on going. So try to 
keep your presentation to 5 minutes if you would.
    Mr. Arnaiz, welcome to the Committee. If you would like to 
begin, that would be fine. We will go ahead and hear testimony 
from everybody and then open it up for questions from members.

           STATEMENT OF MATT ARNAIZ, PROPERTY OWNER, 
                        LODI, CALIFORNIA

    Mr. Arnaiz. Thank you, Mr. Chairman, for the opportunity to 
testify here today. My name is Matt Arnaiz, a resident of Lodi, 
California. I would like to thank Chairman Pombo for bringing 
this legislation to your attention.
    The legislation before you involves the ratification by 
Congress of two deeds affecting real property I own. These 
deeds were acquired by the former property owners from Central 
Pacific Railway Company and Southern Pacific Railroad. The 
deeds only involve the railroads' former right-of-way which was 
obtained through congressional grant in 1862. The railroads, 
back in 1945 and 1955 respectively, quitclaimed a portion of 
the right-of-way to the underlying landowners. The property has 
since been developed with several buildings constructed on the 
former right-of-way. This bill is necessary because Congress 
must ratify these types of deeds in order to perfect the 
railroads' quitclaim deeds in clear title to the property.
    The property consists of approximately 450 acres, of which 
approximately 6.13 acres are affected by the railroad's former 
right-of-way. This legislation is important as the unratified 
deeds create a cloud on title to the property, limiting our 
ability to finance and develop the property. This will cause 
severe hardship to my family and investors because of the 
significant time and investment we have in the property.
    Right now the property sits as an abandoned tomato cannery, 
which is a blight on the community. It is intended that the 
property will be developed for multiple use, including single-
family residences, light industrial and warehousing, and 
commercial and retail office space. It is therefore important 
that these deeds be ratified by Congress so that we may proceed 
with the development of the property.
    This legislation is identical in nature to previous private 
laws passed. In 1994 Congress Doolittle introduced similar 
legislation. On July 5, 1994 Congress passed this legislation 
and it became Private Law 10-2. The law ramifies numerous deeds 
from the railroad to private landowners. Such legislation is 
not uncommon throughout the western states, for the railroad 
has ceased to use a good portion of the rights-of-way 
previously granted by Congress.
    I respectfully request your assistance in the passage of 
this legislation. Thank you for your consideration.
    [The prepared statement of Mr. Arnaiz follows:]

       Statement of Matt Arnaiz, Property Owner, Lodi, California

    Thank you, Mr. Chairman, for the opportunity to testify here today. 
My name is Matt Arnaiz and I am a resident of Lodi, California.
    The legislation before you involves the ratification by Congress of 
two deeds affecting real property owned by my family and friends. These 
deeds were acquired by the former property owners from Central Pacific 
Railway Company and Southern Pacific Railroad. The deeds only involve 
the Railroad's former right-of-way, which was obtained through a 
Congressional grant in 1862. The Railroads, back in 1945 and 1957, 
respectively, quitclaimed a portion of their right-of-way to the 
underlying landowners. The property has since been developed with 
several buildings constructed on the former right-of-way. This bill is 
necessary because Congress must ratify these types of deeds in order to 
perfect the Railroad's quitclaim deeds and clear title to the property.
    The property consists of approximately 450 acres, of which 
approximately 7+ acres is affected by the Railroad's former right-of-
way. This legislation is important, as the unratified deeds create a 
cloud on title to the property, limiting our ability to finance and 
develop the property. This will cause severe hardship to my family and 
investors, because of the significant time and investment we have in 
the property. Right now, the property sits as an abandoned tomato 
cannery, which is a blight on the community. It is intended that the 
property will be developed for multiple use, including single family 
residences, light industrial and warehousing, and commercial and retail 
office space. It is therefore important that these deeds be ratified by 
Congress so that we may proceed with the development of the property.
    This legislation is identical in nature to previous private laws 
passed. In 1993, Congressman Doolittle introduced similar legislation, 
Bill H.R. 1183, which was ultimately passed on July 5, 1994, ratifying 
numerous deeds from the Railroad to private landowners. Such 
legislation is not uncommon throughout the western states, where the 
Railroad has ceased to use a good portion of the rights-of-way 
previously granted by Congress. I respectfully request your assistance 
in the passing of this legislation.
    Thank you for your consideration.
                                 ______
                                 

    [An attachment to Mr. Arnaiz's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T7905.002
    

    Mr. Radanovich. Thank you very much, Mr. Arnaiz.
    Mr. Anderson, welcome to the Committee. You may address the 
bills that you are here to speak on.

   STATEMENT OF BOB ANDERSON, ACTING ASSISTANT DIRECTOR FOR 
   MINERALS, REALTY AND RESOURCE PROTECTION, BUREAU OF LAND 
                  MANAGEMENT, WASHINGTON, D.C.

    Mr. Anderson. Thank you, Mr. Chairman and thank you for 
inviting me to testify regarding H.R. 1658, the private bill to 
amend the railroad Right-of-Way Conveyance Validation Act. The 
Administration has no objection to H.R. 1658.
    In 1994 Congress passed H.R. 1183, which was enacted as 
Private Law-2. The act validated the conveyances of 50 small 
tracts of land in Nevada County and San Joaquin County, 
California. The lands involved were originally part of the 
right-of-way grant of the United States to the Central Pacific 
Railroad by an 1862 act of Congress. The Southern Pacific 
Railroad, the successor to Central Pacific, made conveyances of 
small tracts of land in some of these cases and in others, 
adjacent landowners have made inadvertent encroachments. 
Because under the original act of 1862, a Federal reversionary 
interest existed if these rights-of-way were abandoned by the 
railroad, the 1994 act was necessary to remove any cloud on the 
title of these small landowners.
    The bill before us today amends the underlying act by 
adding two additional small tracts in San Joaquin County, 
California. Based on information provided by the Committee, the 
parcels in question are at the other end of the city of 
Stockton, California. According to the master title plat 
maintained by BLM, these parcels have been in private ownership 
for nearly a century. We see no conflict in clearing title for 
these lands through this legislation. As with the underlying 
act, the mineral estate on these lands is reserved to the 
Federal Government and these lands are withdrawn from all forms 
of mineral entry, including mining, sand and gravel, other 
common materials, and mineral and geothermal leasing.
    Thank you, Mr. Chairman, for the opportunity to testify and 
I would be happy to answer questions.
    [The prepared statement of Mr. Anderson follows:]

  Statement of Bob Anderson, Acting Assistant Director for Minerals, 
  Realty and Resource Protection, Bureau of Land Management, on H.R. 
                                 1658,

    Thank you for inviting me to testify regarding H.R. 1658, a private 
bill to amend the Railroad Right-of-Way Conveyance Validation Act. The 
Administration has no objection to H.R. 1658.
    In 1994, the Congress passed H.R. 1183, Private Law 103-2. The Act 
validated the conveyances of 50 small tracts of land in Nevada County 
and San Joaquin County, California. The lands involved were originally 
part of the right-of-way grant of the United States to the Central 
Pacific Railroad by an 1862 Act of Congress. The Southern Pacific 
Railroad (the successor to Central Pacific) appears to have made 
conveyances of small tracts of land in some of these cases, and in 
others, adjacent landowners have made inadvertent encroachments. 
Because under the original Act of 1862, a Federal reversionary interest 
existed if these rights-of-way were abandoned by the railroad, the 1994 
Act was necessary to remove any cloud on the title of these small 
landowners.
    The bill before us today amends the underlying Act by adding two 
additional small parcels in San Joaquin County, California. Based on 
information provided by the Committee, the parcels in question are at 
the northern end of the city of Stockton, California. According to the 
master title plat, maintained by the BLM, these parcels have been in 
private ownership for nearly a century. We see no conflict in clearing 
title for these lands through this legislation. As with the underlying 
Act, the mineral estate on these lands is reserved to the Federal 
government and these lands are withdrawn from all forms of mineral 
entry, including mining, sand and gravel, other common materials, and 
mineral and geothermal leasing.
    Thank you for the opportunity to testify. I'll be happy to answer 
any questions.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Anderson.
    Welcome, Mr. Smith, to the Subcommittee. You can speak on 
the bills that you are here to speak on. Thanks.

  STATEMENT OF DAN SMITH, SPECIAL ASSISTANT TO THE DIRECTOR, 
            NATIONAL PARK SERVICE, WASHINGTON, D.C.

    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for the opportunity to present the views of the Department of 
the Interior on H.R. 1521, a bill to provide for additional 
lands to be included within the boundary of the Johnstown Flood 
National Memorial in the state of Pennsylvania.
    The bill would add seven parcels of land to the boundary of 
the park to provide permanent protection for resources that are 
integral to the historic events that took place at this site. 
Six of the parcels totaling 2.33 acres are approximately three 
miles from the park in the village of Saint Michael where the 
former South Fork Fishing and Hunting Club was located. The 
seventh parcel, comprising approximately 12 acres, is adjacent 
to the current boundary. Recently a property owner of a .18-
acre parcel in the town of Saint Michael has indicated that he 
does not wish to sell his property. We have provided a revised 
map to indicate that and Mr. Murtha referred to that.
    Land acquisition costs for these six parcels are 
approximately $805,000 and all of the parcels that are under 
consideration are for sale by willing sellers.
    The Department supports the President's initiative to 
address the deferred maintenance backlog and taking care of our 
current responsibilities. In this instance, however, Mr. 
Chairman, we are faced with a unique situation concerning the 
boundary adjustment. The historic structures central to this 
acquisition have always been considered key components of the 
park but were to be protected, maintained and interpreted 
through a public/private partnership. However, the partner can 
no longer perform this function based on financial problems. 
For this reason, the Department believes it is appropriate to 
move forward with this bill at this time.
    In 1986 the South Fork Fishing and Hunting Historic 
District was listed on the National Register of Historic Places 
at the state level of significance. In 1989 the Park Service 
and residents of Saint Michael undertook a joint planning 
effort, which produced the preservation and interpretation plan 
for the South Fork Fishing and Hunting Club Historic District. 
The 1889 South Fork Fishing and Hunting Club Historical 
Preservation Society was formed and as we sit here now, Mr. 
Chairman, they have tried to perform that partnership with the 
Park Service to protect these structures.
    Unfortunately, the society lacks the resources to continue 
to continue to maintain the properties they own, let alone 
preserve and develop them according to approved plans.
    In 2001 the National Park Service completed a 
congressionally mandated special resource study and 
environmental assessment to evaluate options for protection and 
interpretation of these additional parcels. Based on that 
report, the Park Service proposed to add these parcels of land 
to the boundary of the park and acquire the parcels in fee 
simple.
    Mr. Chairman, if the Park Service acquires these buildings 
we would explore the option of a public/private partnership to 
lease these buildings to the private sector for commercial and 
residential use under our historic preservation leasing 
authorities that we have. That type of arrangement would reduce 
the cost of operation and maintenance to the Park Service, 
which we estimate ranges between $75,000 and $310,000. Also, by 
providing historic tax credits to someone who would lease this 
for various types of businesses, like a bed and breakfast or a 
hotel, we would be able to hopefully have the private sector 
pick up the rehabilitation costs, which could be upwards of 
$2.9 million. This would decrease the financial burden to the 
Park Service and there has already been interest expressed by 
local businesses in this type of a proposal.
    Mr. Chairman, that concludes my prepared remarks on H.R. 
1521. We look forward to answering questions.
    Mr. Radanovich. You have another bill to speak on?
    Mr. Smith. Yes, I do. The second bill, Mr. Chairman, is 
H.R. 2055. This bill would increase the number of free-roaming 
horses at Cape Lookout National Seashore. The Department 
supports H.R. 2055. These efforts to adjust the number of free-
roaming horses within the seashore, and we do offer one 
technical amendment to clarify the population range of the 
horses.
    The Department is strongly committed to conserving, 
protecting and maintaining a representative number of horses on 
the Shackleford Banks portion of the seashore, as we have done 
in other units of the system. Without this legislation the 
National Park Service would manage this herd consistent with 
Public Law 105-229, which provides for a herd of 100 free-
roaming horses.
    Mr. Chairman, Congress established Cape Lookout national 
Seashore in 1966. The purposes of the seashore did not include 
the horses. However, in the GMP that was originally done for 
this seashore, the Park Service did state that a representative 
number of horses would remain on Shackleford Banks after the 
privately owned land on the island was purchased by the United 
States.
    On August 13, 1998 Congress passed Public Law 105-229, an 
act to ensure maintenance of a herd of wild horses in Cape 
Lookout National Seashore. Mr. Chairman, that bill is a success 
story. The director and I had an opportunity to be at Cape 
Lookout 2 weeks ago, saw the horses while we were there to 
commemorate the transfer of Cape Lookout Lighthouse to the 
National Park Service, and the coordination between the 
foundation of Shackleford horses, the Park Service, and the 
three professors that Congressman Jones referred to is a 
wonderful example of how you can manage this type of a herd in 
a very unique environment.
    The NPS continues to work with the foundation under an MOU 
and management decisions regarding the horses are reached 
jointly with the foundation and with the advice of scientists. 
The conclusion reached by these groups recently in October of 
last year is that the population of the herd should be allowed 
to fluctuate between 110 and 130 individuals. The range is 
based on sound science and provides the population changes 
which are necessary for maintaining the genetic viability of 
the herd.
    Mr. Chairman, that concludes my remarks on H.R. 2055 and we 
look forward to answering questions.
    [The prepared statements of Mr. Smith follow:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 1521

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1521, a bill to provide for 
additional lands to be included within the boundary of the Johnstown 
Flood National Memorial in the State of Pennsylvania.
    The bill would add seven parcels of land to the boundary of the 
park to provide permanent protection for resources that are integral to 
the historic events that the park was established to commemorate. Six 
of the parcels, totaling 2.33 acres, are approximately three miles from 
the park in the village of Saint Michael where the former South Fork 
Fishing and Hunting Club was located. The seventh parcel, comprising 
approximately 12 acres, is adjacent to the current boundary. Recently, 
a property owner of a 0.18-acre parcel has indicated that he does not 
wish to sell his property. We ask the Committee to amend the map 
reference in the bill to reflect this change of only six parcels being 
added to the park. Land acquisition costs for these six parcels are 
approximately $805,000. All parcels are for sale by willing sellers.
    The Department supports the President's Initiative to address the 
deferred maintenance backlog and taking care of our current 
responsibilities. In this instance, we are faced with a unique 
situation concerning this boundary adjustment. The historic structures 
central to this acquisition have always been considered key components 
of the park, but were to be protected, maintained, and interpreted 
through a public-private partnership. However, the partner can no 
longer perform this function, based on financial problems. For this 
reason, the Department believes it is appropriate to move forward with 
this bill at this time.
    Johnstown Flood National Memorial comprises nearly 165 acres in 
western Pennsylvania. The park's mission is to tell the stories of the 
events leading up to the Johnstown flood, of the flood itself, and of 
its effects on Johnstown and the nation. The addition of the South Fork 
Fishing and Hunting Club properties would significantly increase the 
park's capability to interpret the important events surrounding the 
Johnstown flood and the individuals associated with it.
    On May 31, 1889, a poorly maintained earthen dam breeched, sending 
20 million tons of water down the Little Conemaugh Valley into 
Johnstown and other surrounding communities. A 36-foot wall of water 
rolled over the town at 40 miles per hour, flattening houses, trees, 
locomotives, and everything else in its path. By the disaster's end, 
2,209 people had perished in the flood, another 40 died in the weeks 
after from typhoid, and property damage was estimated at $17 million. 
It was the worst inland flood in the nation's history and the first 
test of the newly formed American Red Cross, headed up by Clara Barton.
    A pivotal part of the story revolves around the South Fork Fishing 
and Hunting Club, located in Saint Michael, which in 1879 had purchased 
an abandoned reservoir, repaired the old dam, and created a private 
lake and recreational area for its members. Because the dam was not 
properly constructed or maintained, it gave way after heavy rains 
pounded the area, overtaxing the Lake Conemaugh dam spillway and 
eventually causing the dam to fail.
    In 1986, the South Fork Fishing and Hunting Club Historic District 
was listed on the National Register of Historic Places at the state 
level of significance.
    In 1989, the Park Service and residents of Saint Michael undertook 
a joint planning effort, which produced the Preservation and 
Interpretation Plan for the South Fork Fishing and Hunting Club 
Historic District. This plan outlined concepts and guidance for basic 
visitor services, interpretation, cultural resource preservation and 
maintenance. As a result of the plan, there developed a structured 
partnership between the village of Saint Michael and the Park Service, 
designed to protect, maintain and manage the South Fork Fishing and 
Hunting Club clubhouse and other significant cottages in the historic 
district. The 1889 South Fork Fishing and Hunting Club Historical 
Preservation Society was formed to be the principal community body 
working with the Park Service in the implementation of the plan. Since 
the original planning efforts, the Society has obtained ownership of 
the Clubhouse, the Annex, the Moorehead Cottage, and the Brown Cottage. 
These properties were not originally included within the boundary of 
the park because it was understood that a local entity could adequately 
provide for their protection and interpretation.
    Unfortunately, the Society lacks the resources to continue to 
maintain the properties they own, let alone preserve and develop them 
according to approved plans. The Society is struggling to make mortgage 
payments, and while they are desperately seeking a solution, the 
properties are deteriorating and losing historic integrity. In 2000, 
the Society worked with a private, non-profit historic property 
development company to try and obtain private sector interest in 
purchasing the properties, but was not successful. There is an imminent 
threat to the protection of these resources. The private owner has 
already listed these historic structures and properties for sale on the 
open market.
    In 2001, the National Park Service completed a special resource 
study and environmental assessment to evaluate options for protection 
and interpretation of the additional parcels of land. Based upon the 
report, the Park Service proposed to add these parcels of land to the 
boundary of the park and to acquire the parcels in fee simple. Within 
the village of Saint Michael, four historically significant properties 
would be acquired. These structures include the former clubhouse of the 
South Fork Fishing and Hunting Club, the Clubhouse Annex, and two 
cottages built by club members. One undeveloped parcel, the Clubhouse 
Side-yard that sits between the Clubhouse and the Clubhouse Annex, 
would also be added. The final parcel would protect the historic 
viewshed of the park, preserving the rural character of the Unger House 
property (Elias Unger was president of the South Fork Fishing and 
Hunting Club), owned by the National Park Service.
    If the Park Service acquired the historic buildings, we would 
explore the option of a public-private partnership to lease the 
buildings to the private sector for commercial and residential use. 
Through our historic leasing program, the private sector could sign a 
long-term lease with the Park Service that would cover a portion of the 
operations and maintenance costs of the properties, which ranges from 
$75,000 to $310,000. In addition, the private sector could rehabilitate 
the buildings, estimated to cost upwards of $2.9 million, using private 
funds in return for Federal historic preservation tax credits. This 
would decrease the financial burden placed on the Park Service by the 
addition of these properties to the park. There has already been 
interest expressed by local businesses in this proposal.
    The proposal to add these properties to the boundary of the park 
has widespread support among the property owners, state and local 
governments, and the public who attended a public meeting in July 2001 
in Saint Michael. Public comments received were unanimous in support of 
the proposal.
    We look forward to working with the local communities in Saint 
Michael and Johnstown to acquire these historically significant 
properties that will help tell the entire story of the events of the 
1889 Johnstown Flood, from the actions leading up to the flood through 
its devastating aftermath.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any questions that you or 
the members of the Committee may have.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7905.001
                                 

   Statement of P. Daniel Smith, Special Assistant to the Director, 
 National Park Service, U.S. Department of the Interior, on H.R. H.R. 
                                  2055

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2055. This bill would 
increase the number of free roaming horses at Cape Lookout National 
Seashore.
    The Department supports H.R. 2055's efforts to adjust the number of 
free roaming horses within Cape Lookout National Seashore (Seashore) 
with an amendment, as stated in this testimony, that clarifies the 
population range of the horses. The Department is strongly committed to 
conserving, protecting, and maintaining a representative number of 
horses on the Shackleford Banks portion of the Seashore, as we have 
done in other units of the National Park System which contain horses, 
and believes that the number of horses on Shackleford Banks should be 
determined by the ecology of the island and by means which protect the 
genetic viability of the Shackleford Banks horses. Without this 
legislation, NPS would manage this herd consistent with P.L. 105-229 
which provides for a herd of 100 free roaming horses.
    H.R. 2055 amends P.L. 89-366 by changing the number of free roaming 
horses at Cape Lookout National Seashore from 100, to not less than 
110, and establishes a target population of between 120 and 130 horses. 
The bill also changes one of the criteria that the Secretary of the 
Interior may use to remove free roaming horses from the Seashore, 
allowing removal as part of a plan to maintain viability of the herd.
    Congress established Cape Lookout National Seashore (Seashore) on 
March 10, 1966. Encompassing more than 28,000 acres of land and water 
about 3 miles off the mainland coast, the Seashore protects one of the 
few remaining natural barrier island systems in the world with 
excellent opportunities for fishing, shellfishing, hunting, 
beachcombing, hiking, swimming, and camping in a wild and remote 
setting.
    The enabling legislation for the Seashore did not address the issue 
of free-roaming wild horses on Shackleford Banks. Public comments on 
the Seashore's 1982 Draft General Management Plan demonstrated 
widespread concern about, and interest in, the future of the horses on 
Shackleford Banks. The Final General Management Plan stated that a 
representative number of horses would remain on Shackleford Banks after 
the privately owned land on the island was purchased by the United 
States.
    In 1996, following a series of public meetings, as well as 
discussions with scientists and professional managers of wild horse 
herds, the Seashore developed an Environmental Assessment (EA) with 
alternatives for managing the Shackleford Banks horse herd. That plan, 
while acceptable to the public, was opposed by some groups who rejected 
the idea of any management intervention. The plan proposed to maintain 
a representative herd of horses by using a combination of contraceptive 
drugs and periodic roundups and removal of horses.
    On November 11, 1996, the National Park Service (NPS), with 
assistance from state veterinarians from the North Carolina Department 
of Agriculture, initiated a roundup of the Shackleford horses. State 
law required testing the horses for Equine Infectious Anemia (EIA). Out 
of the 184 horses on the island, 76 tested positive for EIA and were 
removed to the mainland for temporary quarantine. On the advice of the 
North Carolina Department of Agriculture, these horses were euthanized.
    In December 1996, the NPS established the Shackleford Banks Horse 
Council, representing a wide variety of interests and stakeholders, as 
a working committee to assist the park with plans for managing horses. 
In 1997, a second roundup and testing program was conducted on the 
Shackleford horses. Of the 103 horses on the island, five tested 
positive for EIA. By this time, the Foundation for Shackleford Horses, 
Inc. had secured a state-approved quarantine site and the five EIA 
positive horses were transferred to it. In the transfer document, the 
Foundation and the Service committed to develop a long-term Memorandum 
of Agreement (MOA) to cooperate in the management of the Shackleford 
Banks horses. On an interim basis, the Service issued a special use 
permit to the Foundation to allow it to assist with the management of 
the herd.
    On August 13, 1998, Congress passed P. L. 105-229, ``An Act To 
Ensure Maintenance of a Herd of Wild Horses in Cape Lookout National 
Seashore.'' This act directed the NPS to maintain a herd of 100 free 
roaming horses and to enter into an agreement with the Foundation for 
Shackleford Horses, Inc. or another qualified nonprofit entity, to 
provide for the management of free roaming horses in the Seashore. In 
April 1999, a Memorandum of Understanding with the Foundation for 
Shackleford Horses, Inc. was signed.
    P.L. 105-229 requires an annual Findings Report that provides the 
public with information regarding the population, structure, and health 
of the horses on Shackleford Banks. Research, monitoring and record 
keeping, with the goal of informed decisions for removal and 
immunocontraception, is ongoing, as is consultation with 
internationally recognized advisors in the fields of equine behavior, 
genetics, virology, immunocontraception, management, humane issues, and 
island ecology. The NPS continues to work with the Foundation under the 
MOU and management decisions regarding the horses are reached jointly 
with the Foundation and with the advice of scientists.
    On October 29 and 30, 2002, the NPS hosted a roundtable meeting 
with the aim of reaching a consensus on the free roaming horse 
population range and the strategy for achieving that range. 
Participants included the Seashore Superintendent and staff, staff from 
Representative Jones' office, and representatives from the Foundation 
for Shackleford Horses, Inc. Three leading scientists considered 
experts in their respective fields also participated: Dr. Dan 
Rubenstein of Princeton University, Dr. Gus Cothran of the University 
of Kentucky, and (by telephone) Dr. Jay Kirkpatrick of ZooMontana.
    Included in the discussion was the value of occasional herd 
expansion to maintain genetic variability in the population. The 
conclusion reached was that the population should be allowed to 
fluctuate between 110-130 individuals. The methodology of conducting 
removal and contraception toward this goal was also discussed and 
agreed upon. The range of 110 to 130 horses is based on sound science 
and provides the population changes, which are necessary for 
maintaining the genetic viability of the herd.
    Based upon the October roundtable discussion, we recommend an 
amendment to the bill that is attached to this testimony. We believe 
that this amendment will more clearly reflect the need to allow the 
population bloom necessary for maintaining the genetic viability of the 
herd.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

                    Suggested Amendment, H.R. 2055:

    On page 2, line 1, delete ``with a target population of between 120 
and 130'' and insert, ``allowing periodic population expansion of the 
herd to a maximum of 130 horses''.
                                 ______
                                 
    Mr. Radanovich. Thank you very much.
    I recognize Mrs. Christensen for any questions you may 
have.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I guess I would ask my questions of Dan Smith, the special 
assistant to the director. This is on the Johnstown Flood bill. 
Your testimony is that one reason it was fairly urgent for the 
National Park Service to acquire these properties for addition 
to the memorial is that the South Fork Fishing and Hunting Club 
Historical Preservation Society has run into financial 
difficulties and is struggling to make mortgage payments. 
However, you also said that a private owner had actually listed 
the properties for sale.
    So who is the private owner and is it the bank which holds 
the mortgage for the society or is it the society itself?
    Mr. Smith. Mrs. Christensen, I believe the answer to that 
is it is the society. They actually went to a developer and 
tried to package it and sell it. This was in a 2000-2001 
timeframe. They were not successful. Currently the society does 
hold the mortgage. They actually, quite truthfully, are waiting 
to see what happens with this legislation, if this is going to 
be the way that this will be resolved. It is that society 
trying to find a way to handle this situation where they just 
do not have the finances to continue it, but it has not been 
repossessed by the bank; the society still does hold title to 
these properties.
    Mrs. Christensen. And also, since they have not been 
successful in the public/private partnerships to lease and 
rehabilitate the buildings, are we also assuming that should 
this go through and the National Park Service were to manage 
it, that they would be in a better position to forge those 
public/private partnerships?
    Mr. Smith. We would hope so. There is no guarantee, Mrs. 
Christensen. However, the difference would be the Park Service 
would own the fee simple and these would be long-term, very 
attractive leases, including to allow for the historic tax 
credit that is used for billions of dollars of this type of 
effort around the country.
    This major building was used as a hotel for most of this 
century until it did come into the society, so locally we do 
understand from the superintendent that under the historic 
leasing program there is a possibility someone would take that 
on, not with the actual ownership, but with a very conducive 
long-term lease.
    Mrs. Christensen. On H.R. 2055, the Cape Lookout horses, 
how would you rate the health of the herd?
    Mr. Smith. In conversations just Saturday 2 weeks ago with 
both the biologist who actually is there and the 
superintendent, the herd is right now about 119 horses. That 
was the last accurate count in January of this year. They 
reduced it from 131.
    The herd is very healthy. There is no sign of any of the 
equine viruses in them. This plume that has been discussed 
seems to be the exact thing to work. They lost a few in 
hurricanes in the late 1990's. They lost one just recently, a 
wonderful mare, because she was tangled up in fishing 
equipment. But with all of those types of things that do happen 
where you do lose horses here and there, it is a very healthy 
herd. And it has to be one of the most studied herds in the 
country, with these three wonderful doctors who Congressman 
Jones said just pay so much attention to them. Very healthy, 
120 plus or minus herd right now.
    Mrs. Christensen. Great. Any damage to the park from wild 
horses and if so, has the park taken any specific measures to 
avert that, or not a problem?
    Mr. Smith. Actually in discussions yesterday with again 
this local biologist, the horses kept at this number seems to 
work wonderfully on that 3,000-acre coastal barrier. Part of 
that is because earlier in the 1980's all the other feral 
animals--the pigs, the cows, and whatever--were removed and now 
that the horses have that free range, all the ecology of the 
grasses and all that seems to be working absolutely wonderfully 
and the park has no problem with it at all.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I now recognize Mr. Pombo for any questions.
    Mr. Pombo. Thank you, Mr. Chairman.
    I wanted to welcome my constituent, Mr. Arnaiz, here today. 
I know that when this started several years ago you had no idea 
it was going to take an act of Congress to solve this problem. 
I welcome you here and hopefully we will be able to move this 
and remove any doubt or cloud that exists. Thank you for being 
here.
    Mr. Anderson, I wanted to ask you a question. In reviewing 
your testimony you bring up the 1862 act and you state that the 
1994 act was necessary to remove any cloud on the title of the 
small landowners. Can you explain a little bit to me how the 
1862 act is referenced in this case in light of the bill that 
you are testifying on today?
    Mr. Anderson. Well, in the 1862 act that was a transfer of 
property to the railroad companies, who in turn had the right 
to sell those lands to others within the railroad.
    Mr. Pombo. Let me stop you right there. The 1862 act 
partially was the right-of-way that was given to Central 
Pacific, in this case Central Pacific. The odd sections were 
treated differently than the right-of-way itself.
    Mr. Anderson. Well, there were different types of railroad 
acts and this particular one did not offer the checkerboard or 
every-other-section opportunity that----
    Mr. Pombo. So it is just the right-of-way.
    Mr. Anderson. Yes, that provided so many feet from the 
center line of the railroad a grant that was----
    Mr. Pombo. 200 feet on either side of the center line of 
the railroad?
    Mr. Anderson. That is right.
    Mr. Pombo. And it did not allow them to sell that right-of-
way.
    Mr. Anderson. That is right. If they failed to use that 
right-of-way for railroad purposes----
    Mr. Pombo. It was to revert back to the adjoining property 
owners.
    Mr. Anderson. Right.
    Mr. Pombo. Now how in the case of 1658, how does the 
original generic act come in in that case?
    Mr. Anderson. Well, you had some encroachments into the 
right-of-way by folk and I am sure it was unbeknownst to the 
railroad at the time. I am not sure how that happened bur there 
were encroachments and they were conveyed to these adjacent 
landowners.
    Mr. Pombo. So because--and I remember the last time that we 
did this--because there were places where towns grew up, things 
got built that were closer than within that historic right-of-
way, it became necessary for Congress to quitclaim or to give 
clear title to those property owners who happened to be within 
those areas.
    Mr. Anderson. Yes, that was provided for in the 1922 act 
that said that Congress must ratify any of these sales that 
have been made by the railroad company.
    Mr. Pombo. So the 1922 act is what requires us to act on 
every single one of them.
    Mr. Anderson. That is exactly right.
    Mr. Pombo. Thank you very much, Mr. Chairman. Thank you.
    Mr. Radanovich. Mrs. Bordallo, did you have any questions?
    Ms. Bordallo. Thank you, Mr. Chairman. I have one for Mr. 
Smith on H.R. 1521.
    This community of Saint Michael, what is the historical 
significance of this community and is it a visitor destination 
in the state?
    Mr. Smith. Congresswoman, it would be a visitor destination 
because it is immediately adjacent to where the Johnstown flood 
occurred. The lake that was contained by the dam is located at 
Saint Michael. So in the late 1800's it was a resort for the 
very wealthy from Pittsburgh to come up and recreate in this 
wonderful hill country of Pennsylvania and today it does have a 
mixture, as I understand it, of antique shops, bed and 
breakfasts, and that type of thing, so it is a destination.
    And, as Congressman Murtha said, the 150,000 to 160,000 
people who visit the Johnstown Memorial site each year, that is 
actually the town that they are in. The flood occurred much 
further down the river in Johnstown.
    Ms. Bordallo. I was going to ask that question. Were there 
any casualties or fatalities in Saint Michael itself?
    Mr. Smith. None that I am aware of. Basically the dam 
breached at the lower end of the town and it just flowed out. 
It was amazing how fast. I think the engineer onsite there said 
whatever the huge volume of water was emptied out within 
several hours but no, there was nothing there.
    The significance of this is these are the homes and the 
actual buildings that were associated with that club that 
maintained this lake, so it has that significance to the 
memorial.
    Ms. Bordallo. Thank you. Thank you very much.
    Then I have one on H.R. 1658, on the railroad, for Mr. 
Anderson. How many grants from Congress to the railroads over 
the years have been reverted to Federal ownership?
    Mr. Anderson. I do not know, ma'am, but we conveyed or 
testified in 1994 about 40 other parcels and under this 
particular scenario they were ratified by Congress, parcels 
like the ones that we are talking about today.
    Ms. Bordallo. There are more tracts that have been turned 
over to private hands than----
    Mr. Anderson. Yes, there were 40ish.
    Ms. Bordallo. Forty. Are there still more to come?
    Mr. Anderson. That is a good question. I do not know.
    Ms. Bordallo. Maybe we ought to just recognize everything 
that is left over and say that whatever comes in the future 
that it be turned over to private hands, if they so desire. I 
am just thinking. Is there still quite a bit of land that would 
have to come through Congress?
    Mr. Pombo. If the gentlelady would yield, there are 
hundreds if not thousands of properties that could possibly 
fall into this same category. The original grants that the 
railroads had in the 1862 act, what was given to the railroad 
was a right-of-way. It is surface right-of-way. They do not 
have any subsurface rights and if they ever give up the right-
of-way for railroad purposes, it is supposed to revert back to 
the adjoining property owners, who historically had that 
property or through succession ended up buying that property.
    This has been an area of some controversy throughout the 
West because there were a number of right-of-ways that were 
given to railroads that have since become abandoned and there 
is a cloud over who actually owns those properties. The 1862 
act said that once they gave it up it reverted back to the 
property owners. Some of the railroads have tried to maintain 
that right-of-way, to maintain some kind of ownership, even 
though they abandoned it. Some communities have tried to go in 
and buy those from the railroad either as a recreational trail 
or a transportation corridor. So there is some controversy over 
this.
    With Mr. Arnaiz's case it is just someone who, because 
either the railroad moved or the property was developed into 
that right-of-way, it became in dispute as to who actually 
owned that land.
    If you go back and actually look at the 1862 grants, it is 
not really specific where the original right-of-way was and in 
a lot of them, and I have spent a great deal of time going 
through these, it says that the railroad has a right-of-way 
that is 200 feet on either side of the track, but it does not 
say exactly where the track was. So if they straightened out 
the railroad or moved the track one way or another, a property 
like this could end up all of a sudden being within that 200 
feet center line and it may not have been originally when the 
railroad went through there.
    Ms. Bordallo. I see.
    Mr. Pombo. So there is some controversy around it.
    Ms. Bordallo. But a precedent has been set.
    Mr. Pombo. Yes, we dealt with these----
    Ms. Bordallo. That is what I am saying. Once a precedent 
has been put in place I feel that for the future if we have to 
go before Congress--so it has to be case by case? Is that what 
you are saying?
    Mr. Pombo. Yes. Apparently because of the 1922 act, we have 
to deal with every one of these individually.
    Ms. Bordallo. Right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you.
    Mr. Jones?
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Smith, I appreciate the work you did a few years ago on 
this bill and also the position of the Park Service. I want to 
read a statement that I have submitted from Dr. Dan Rubenstein, 
genetic scientist at Princeton, who the Committee might be 
interested to know that for the last 30 years he has been 
taking 25 or 30 students to sleep out on the Shackleford Banks 
and study these horses. Actually, Dr. Rubenstein was featured 
on the Discovery Channel about four or 5 years ago, the Peter 
Graves show, about all this fine work that he has been doing.
    Mr. Smith, the question that I want to read, part of a 
statement that Dr. Rubenstein writes in this letter, which 
again I am submitting, he says, ``By supporting the goal of 
managing numbers to remain close to 120 yet also allowing the 
population to periodically bloom to 130 so that successful 
genes could occasionally increase in frequency and spread 
through the population before numbers are again reduced.'' Your 
technical amendment would not alter what Dr. Rubenstein 
believes needs to be done to ensure the diversity of this herd?
    Mr. Smith. Mr. Jones, I do not believe so. Basically it 
would just delete the current bill ``with a target population 
of between 120 and 130'' and instead would insert ``allowing 
periodic population expansion of the herd to a maximum of 
130.''
    My interpretation of this, which I would get on the record, 
is that we are talking about 110 to 130 horses. Obviously 120 
is right in the middle. It is a technical amendment and 
certainly if the doctor had trouble with that, it is just 
offered as a technical amendment. It just did not peg it--I 
think everybody understands 120 probably is the optimum number 
but you need allowances on top of that.
    Mr. Jones. Well, I trust you. We had kind of a fight for 
this bill back in 1997, as you well remember, because you were 
on the staff then.
    Mr. Smith. I vaguely remember, Mr. Jones.
    Mr. Jones. But this concern that Rubenstein has about 
allowing the bloom, so to speak, you do not see that your 
amendment would restrict what he thinks is necessary for the 
science to adequately assure the future of the herds?
    Mr. Smith. I do not, Mr. Jones. And again, as you review 
that and go back to the good doctor, it is offered only as a 
technical amendment and certainly it does not jeopardize the 
Department's support of the bill whichever way it ends up in 
the final legislation.
    Mr. Jones. Thank you and the Department for your support.
    Mr. Smith. You are very welcome, Congressman.
    Mr. Radanovich. Are there any other questions of the panel?
    All right, that being the last panel, this concludes our 
hearing on these three bills. Gentlemen, thank you very much 
for your testimony and this concludes our hearing. Thank you 
very much.
    [Whereupon, at 2:50 p.m., the Subcommittee was adjourned.]

    [A letter submitted for the record on H.R. 2055 by Carolyn 
Mason, President and Chairman, Foundation for Shackleford 
Horses, Inc., follows:] 

[GRAPHIC] [TIFF OMITTED] T7905.003


</pre></body></html>
